              Audit Report




   Access Controls for the Social
Security Number Verification Service




        A-03-12-11204 | April 2013
MEMORANDUM


Date:      April 18, 2013                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Access Controls for the Social Security Number Verification Service (A-03-12-11204)

           The attached final report presents the results of our audit. Our objective was to determine the
           effectiveness of the Social Security Administration’s (SSA) controls to detect whether
           companies were improperly using SSA's employer verification programs for non-employment
           purposes.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Access Controls for the Social Security Number Verification
Service
A-03-12-11204
April 2013                                                               Office of Audit Report Summary

Objective                               Our Findings

To determine the effectiveness of the   The controls to detect whether employers were improperly using
Social Security Administration’s        SSA’s SSNVS program for non-employment purposes need to be
(SSA) controls to detect whether        improved. The Failed MEF Check reports for Calendar Years 2009
companies were improperly using         and 2010, which included about 26 million transactions, were
SSA's employer verification programs    unreliable. The reports contained numerous false positive (meaning
for non-employment purposes.            an employer/employee relationship existed), non-SSNVS, and
                                        duplicate transactions, which made it difficult for SSA staff to
Background                              identify instances where employers may have been verifying
                                        individuals who were not employees.
In 2005, SSA implemented the Social
Security Number Verification Service    The Same Name/Different SSN and Same SSN/Different Name
(SSNVS) to assist employers with        Potential Fraud Identification reports effectively identified
accurate wage reporting and increase    instances where registered companies may have been searching for
the ease and convenience of verifying   valid name/SSN combinations. Our review of the reports generated
employee names and Social Security      in Fiscal Year 2010, found that seven employers may have
numbers (SSN).                          inappropriately used SSNVS to search for valid name/SSN
                                        combinations for non-employees. Although SSA staff agreed that
SSA developed several fraud detection   four of the seven employers may have used SSNVS for
reports to help detect whether          non-employment purposes, they were not consistent in contacting
registered companies were properly      these employers to inform them about the appropriate use of
using SSNVS. The SSNVS Failed           SSNVS.
Master Earnings File (MEF) check
report helps ensure there is an         Our Recommendations
employer/employee relationship
between the user and individual         1. Determine whether to modify the existing Failed MEF Check
verified. The Same Name/Different          report to ensure it is a reliable tool to detect whether registered
SSN Potential Fraud Identification         companies are improperly using SSNVS for non-employment
report identifies users attempting to      purposes or develop a more useful fraud detection tool.
verify more than 50 combinations of
the same name and different SSN for a   2. Conduct outreach with registered companies regarding using the
single Employer Identification Number      appropriate EIN when submitting verifications to reduce the
(EIN). The Same SSN/Different Name         number of transactions posted to the Failed MEF Check report.
Potential Fraud Identification report
identifies users attempting to verify   3. Develop consistent procedures for contacting employers who
more than 50 combinations of the same      appear on the fraud detection reports to ensure the appropriate
SSN and different name for a single        use of SSNVS.
EIN.
                                        SSA agreed with all our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     SSNVS Failed MEF Check Report ............................................................................................3
           Non-SSNVS Transactions Posted to the Failed MEF Check Report ..................................5
           Duplicate Transactions Posted to the Failed MEF Check Report........................................6
     Fraud Identification Reports ......................................................................................................7
Conclusions and Recommendations ................................................................................................9
Agency Comments ...........................................................................................................................9
Appendix A – Social Security Number Verification Service ..................................................... A-1
Appendix B – Scope and Methodology ..................................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Access Controls for the Social Security Number Verification Service (A-03-12-11204)
ABBREVIATIONS
BSO                  Business Services Online

CBSV                 Consent Based Social Security Number Verification

CY                   Calendar Year

EIN                  Employer Identification Number

FY                   Fiscal Year

IRS                  Internal Revenue Service

MEF                  Master Earnings File

SSA                  Social Security Administration

SSN                  Social Security Number

SSNVS                Social Security Number Verification Service

Form
W-2                  Wage and Tax Statements




Access Controls for the Social Security Number Verification Service (A-03-12-11204)
OBJECTIVE
Our objective was to determine the effectiveness of the Social Security Administration’s (SSA)
controls to detect whether companies were improperly using SSA's employer verification
programs for non-employment purposes.

BACKGROUND
In 2005, SSA implemented the Social Security Number Verification Service (SSNVS) to assist
employers with accurate wage reporting and increase the ease and convenience of verifying
employee names and Social Security numbers (SSN). SSNVS is a free verification program that
allows registered companies (employers and submitters) to verify employees’ names and SSNs
against SSA’s records before submitting Wage and Tax Statements (Form W-2) to SSA. 1

As shown in Figure 1, the volume and use of SSNVS increased from Calendar Years (CY) 2008
to 2010. In CY 2008, SSA processed about 99 million transactions, and, in CY 2010, it
processed about 106 million transactions, an increase of about 7 million transactions over the
3-year period. In addition, the number of companies that registered and used the service
decreased in 2009 but increased in 2010. The net increase was 66 companies, 40,137 in
CY 2008 to 40,203 in CY 2010.

                     Figure 1: SSNVS Transactions for CYs 2008 Through 2010
                           Total Transactions




Notes:
    (a) Total transactions are in the millions.
    (b) Total registered companies that used SSNVS.




1
    See Appendix A for more information about SSNVS.




Access Controls for the Social Security Number Verification Service (A-03-12-11204)              1
Registered companies can use SSNVS to verify current or former employees for wage reporting
purposes. 2 It is appropriate to use SSNVS only when an official employer/employee relationship
has been established. SSA defines an employer/employee relationship when one of the
following has occurred. 3

       •   The employer has offered, and the person being hired has accepted, employment (even
           though he/she has not started working).

       •   The future employee has completed the paperwork to establish a payroll record.

Registered companies cannot use SSNVS to verify potential new hires, contractors, or
individuals related to other business functions. Companies that need to verify SSNs for
non-employment purposes (such as identity, credit, or mortgages) can use SSA’s Consent Based
Social Security Number Verification (CBSV) program. To use CBSV, companies must obtain
valid consent 4 from the individual before verifying their SSN and pay SSA in advance a
$1.05 fee per transaction. 5 Because both verification programs are available to the public, there
is a risk that companies may try to avoid CBSV’s consent and cost requirements by using
SSNVS for non-employment purposes.

In 2005, SSA developed several fraud detection reports to help detect whether registered users
were improperly using SSNVS.
•      SSNVS Failed Master Earnings File (MEF) Check Report. Compares a valid name/SSN
       combination submitted for verification against SSA’s MEF to determine whether the
       individual worked for the same company that submitted the verification. The MEF contains
       all earnings data reported by employers and self-employed individuals. This check helps
       ensure there is an employer/employee relationship. If the data do not match, the verification
       data are copied to the report for SSA staff to review.
•      Same Name/Different SSN Potential Fraud Identification Report. The weekly report
       identifies users attempting to verify more than 50 combinations of the same name and
       different SSN for a single Employer Identification Number (EIN). SSA compiles the data on
       a rolling 6-month basis to determine whether companies are phishing for a valid name/SSN
       combination. The report identifies up to 500 names.



2
 When registering for SSNVS, users attest they are verifying SSNs solely to ensure the records of current or former
employees are correct for completing Internal Revenue Service (IRS) Form W-2.
3
 SSA, Business Services Online Social Security Number Verification Service (SSNVS) Handbook,
September 2011.
4
    Obtaining consent is required by the Privacy Act of 1974, as amended. See 5 U.S.C. § 552a (b).
5
 In Fiscal Year (FY) 2009, SSA implemented the CBSV program to assist companies with consent-based SSN
verification for non-program-related reasons. At that time, the cost per transaction was $5.00, but in FY 2012, the
cost was reduced to $1.05.




Access Controls for the Social Security Number Verification Service (A-03-12-11204)                                   2
•   Same SSN/Different Name Potential Fraud Identification Report. The weekly report
    identifies users attempting to verify more than 50 combinations of the same SSN and
    different name for a single EIN. SSA compiles the data on a rolling 6-month basis to
    determine whether companies are phishing for a valid name/SSN combination. The report
    identifies up to 500 SSNs.

RESULTS OF REVIEW
The controls to detect whether companies were improperly using SSNVS for non-employment
purposes need to be improved. The Failed MEF Check reports for CYs 2009 and 2010, which
included about 26 million transactions, were unreliable. The reports contained numerous false
positive (meaning an employer/employee relationship existed), non-SSNVS, and duplicate
transactions, which made it difficult for SSA staff to identify instances where employers may
have been verifying individuals who were not employees. Specifically, 129 (65 percent) of the
200 sample transactions we reviewed were posted to the reports even though there was a verified
employer/employee relationship between registered companies and individuals. The postings
occurred because either registered companies did not use the same EINs for verification and
wage reporting or SSA generated the reports before the wages were posted to the MEF. In
addition, we found that 1.6 million of the 26 million transactions posted to the Failed MEF
Check reports did not relate to SSNVS. We determined that 1.2 million (79 percent) of these
transactions related to CBSV and were erroneously posted to the Failed MEF Check reports
because of a programming error. Lastly, we found that 4.2 million transactions were duplicates
that should have been removed before the reports were generated.

Further, we found that both the Same Name/Different SSN and Same SSN/Different Name
Potential Fraud Identification reports effectively identified instances where registered companies
may have been searching for valid name/SSN combinations. Our review of the reports generated
in FY 2010 found seven employers may have inappropriately used SSNVS to search for valid
name/SSN combinations for non-employees. Although SSA staff agreed that four of the seven
employers may have used SSNVS for non-employment purposes, they were not consistent in
contacting these employers to inform them about the appropriate use of SSNVS.

SSNVS Failed MEF Check Report
As shown in Table 1, the Failed MEF Check reports for the 2-year period contained
approximately 26 million records. The 2009 SSNVS Failed MEF Check report contained about
2.7 million records related to 4,149 registered companies, and the 2010 report included
approximately 23.4 million records related to 34,564 registered companies. This was a
20.7-million record increase over 1 year. When compared to the total number of records
submitted to SSNVS for both years, the 2009 Failed MEF Check data represented 3 percent of
the transactions and 11 percent of the companies, and the 2010 Failed MEF Check data
represented 22 percent of the transactions and 86 percent of the companies. We discussed with
Agency staff why there was such a significant increase in the number of transactions posted to
the Failed MEF Check reports from 2009 to 2010; however, they could not provide an
explanation for the significant increase.



Access Controls for the Social Security Number Verification Service (A-03-12-11204)              3
                     Table 1: Failed MEF Check Report for CYs 2009 to 2010
                               Total                           MEF Check                       Percent of
        Total SSNVS                         MEF Check                            Percent of
CY                           Registered                        Registered                      Registered
        Transactions(a)                    Transactions(a)                      Transactions
                             Companies                         Companies                       Companies
2009         101.6              39,250            2.7              4,149              3           11

2010         106.2              40,203           23.4             34,564              22          86

Total        207.8                               26.1
Note:   (a) Records are in millions.

To understand why the Failed MEF Check reports included such a significant number of
transactions, we reviewed a sample of 200 transactions related to 81 employers for the 2-year
period. We found the reports had limited value for SSA staff to detect SSNVS misuse because
129 (65 percent) of the 200 transactions were false positive transactions:

•    98 transactions (49 percent) related to employers using more than 1 of their EINs for
     verification and wage reporting. While a verified employee/employer relationship existed
     between employers and individuals, the employers did not use the same EIN for verification
     and wage reporting, causing SSA to post the transactions to the Failed MEF Check reports.
     SSA’s policy requires that the submitter provide the EIN of the employer who reports the
     wages for verification. 6 SSA should take steps to remind employers about this requirement
     to help keep these types of transactions from being erroneously posted to the report.

•    27 transactions (14 percent) related to submitters using their own EINs for verification even
     though SSA’s policy requires that the submitter provide the EIN of the employer who reports
     the wages for verification. We found submitters (that is, companies that conducted
     background checks, processed payroll, and provided staffing service) used their EINs to
     verify individuals, but employers who actually hired the individuals reported the wages. As a
     result, the EINs did not match, causing SSA to post false positive transactions to the Failed
     MEF Check reports.

•    10 transactions (5 percent) were submitted to CBSV for verification instead of SSNVS.
     Because companies use CBSV for non-employment purposes, there would not be an
     employer/employee relationship between the companies and the individuals verified. These
     records should not have been included on Failed MEF Check reports. We discuss this issue
     in more detail later in the report.

•    4 transactions (2 percent) were erroneously posted to the Failed MEF Check report because
     of timing issues. Although there was an employee/employer relationship for the four
     individuals, SSA posted the transactions to the Failed MEF Check report because the report


6
 SSA, Business Services Online Social Security Number Verification Service (SSNVS) Handbook,
September 2011.




Access Controls for the Social Security Number Verification Service (A-03-12-11204)                    4
    was generated before the wages were posted to the MEF. The 2009 SSNVS Failed MEF
    Check report was generated in early April 2010, but the wages were not posted to the MEF
    until the end of April 2010. Had SSA generated the report later in the year when it received a
    majority of the wage information from employers, these records would not have been
    included on the report.

The remaining 61 transactions (30 percent) could have related to the improper use of SSNVS
because we were not able to confirm whether there was an employer/employee relationship.
However, these transactions may also relate to the integrity issues discussed below.

Non-SSNVS Transactions Posted to the Failed MEF Check Report
We found several integrity issues with the Failed MEF Check reports that made them unreliable
and not useful for SSA staff to detect whether companies were misusing SSNVS. For example,
the 2009 and 2010 Failed MEF Check reports contained about 1.6 million transactions that did
not relate to SSNVS (see Table 2). Specifically, in 2009, there were about 180,000 (7 percent)
more transactions on the Failed MEF Check report than submitted through SSNVS for
11 companies, and in 2010, the report contained an additional 1.4 million (6 percent) transactions
related to 11,429 companies.

Of the 1.6 million transactions, we determined that 1.2 million (79 percent) transactions related
to CBSV rather than SSNVS. 7 In 2009, 6 companies submitted about 172,000 CBSV
verifications and in 2010, 51 companies submitted about 1.1 million verifications. Because
CBSV is a verification program for non-employment purposes, the transactions met the Failed
MEF Check report criteria and were erroneously posted to the reports. A programming error
caused the CBSV transactions to be posted to the Failed MEF Check report. Since both SSNVS
and CBSV are services offered under Business Services Online (BSO), a suite of Internet
services for businesses and employers to exchange information with SSA over the Internet, 8 SSA
staff did not select the SSNVS role identifier when generating the Failed MEF Check reports.
Selecting only the SSNVS role identifier would have eliminated CBSV transactions from
inclusion in Failed MEF Check reports.

We were not able to determine why the remaining 335,000 transactions (21 percent) were posted
to the Failed MEF Check reports. It is possible these transactions related to other services
offered under BSO.




7
 These records represent an exact match on the following data fields: EIN, user personal identification number,
SSN, and first and last name.
8
 BSO allows employers to report Forms W-2 to the Agency electronically. However, BSO also offers other
services, such as SSNVS; CBSV; and representative, attorney and non-attorney business activities.




Access Controls for the Social Security Number Verification Service (A-03-12-11204)                               5
                    Table 2: Non-SSNVS Transactions for CYs 2009 and 2010
                          Total              CBSV                    Unknown
         CY           Non-SSNVS
                      Transactions   Transactions Percent Transactions Percent
        2009               180,000               172,000             96             8,000              4
        2010              1,400,000             1,073,000            77            327,000            23

        Total             1,580,000             1,245,000            79            335,000            21

Duplicate Transactions Posted to the Failed MEF Check Report
SSA’s policy9 for producing the Failed MEF Check report requires that staff remove duplicate
transactions before generating the report. A duplicate transaction involves an exact match on
certain data fields, such as the EIN, user identification number, 10 SSN, and name. However, we
found both reports included approximately 4.2 million duplicate transactions (see Table 3). The
2009 report contained about 461,000 (17 percent) duplicate transactions related to
510 employers, and the 2010 report contained about 3.7 million duplicate transactions
(16 percent) related to 3,172 employers. SSA should have removed the duplicate transactions
from the reports to avoid wasting valuable staff resources researching and analyzing these
transactions.

                    Table 3: Duplicate Transactions for CYs 2009 and 2010
                                MEF Check                                                         Percent
                   MEF Check                     Duplicate     Duplicate
      CY                         Registered                                                         of
                   Transactions                Transactions Companies
                                 Companies                                                      Transactions
      2009            2,700,000            4,149             461,000              510                 17
      2010           23,400,000            34,564           3,700,000            3,172                16

     Total           26,100,000                             4,161,000                                 16

Since the Failed MEF Check report was implemented in 2005, SSA has not used it to remove or
block companies’ access to SSNVS because the reports have not been a useful tool to identify
potential misuse. Because SSNVS is used to ensure accurate wage reporting and SSA processes
over 100 million transactions annually, the Agency needs to determine whether to modify the
existing Failed MEF Check report to help ensure registered companies are using SSNVS as
intended or develop a more useful fraud detection tool.


9
 SSA, Social Security Number Verification Service (SSNVS) Detailed System Specifications (DSS) Chapter 7-
Reports, April 2009, page 38.
10
  The user identification number is a unique number assigned to users when they register for BSO services such as
SSNVS and CBSV.




Access Controls for the Social Security Number Verification Service (A-03-12-11204)                                 6
Fraud Identification Reports
Both the Same Name/Different SSN and Same SSN/Different Name Potential Fraud
Identification reports effectively identified instances where registered companies may have been
phishing 11 for valid name/SSN combinations. Based on our review of the reports generated in
FY 2010, we found that seven employers identified on the reports may have used SSNVS
inappropriately to search for valid name/SSN combinations (see Table 4).

              Table 4: Analysis of FY 2010 Potential Fraud Identification Reports
                                  Report               Same Names          Different SSNs          Employers
        Same                Potential Phishing                42                  8,258                 4(a)
     Name/Different
      SSN Report            Submission Errors                 36                 32,374                  6
                                   Total:                     78                 40,632                  10
                                  Report                Same SSNs         Different Names          Employers
        Same                Potential Phishing                34                  2,085                 4(a)
     SSN/Different
     Name Report            Submission Errors                 5                    527                   3
                                   Total:                     39                  2,612                  7

Note:    (a) One employer appeared on both fraud reports. Thus, seven employers were potentially searching for
         valid name/SSN combinations.

Same Name/Different SSN Potential Fraud Identification Reports: The Same Name/Different
SSN Potential Fraud Identification reports showed that four employers could have used SSNVS
inappropriately to search for valid name/SSN combinations. The employers submitted 42 names
associated with 8,258 different SSNs, ranging from 51 to 1,542 different SSNs. The transactions
appeared suspicious because the employers verified names with similar SSNs that varied by one
or two digits. For example, an employer in the food and beverage industry verified a name with
55 different SSNs where only 1 digit was different, indicating the employer may have been
searching for a valid name/SSN combination.

Furthermore, we found that an employer who was a State prison agency submitted a majority of
the transactions that appeared on the fraud reports. The employer submitted 28 (67 percent) of
the 42 names associated with 7,125 SSNs. It appeared this employer was phishing for a valid
name/SSN combination because the employer submitted similar names for verification. In
addition, we were not able to find any evidence that the employer had reported any wages for
most of the individuals, leading us to believe the verifications were not related to wage reporting.


11
  Phishing is the act of attempting to acquire personal information (such as a valid name and SSN combination) that
will be used for an illegal purpose.




Access Controls for the Social Security Number Verification Service (A-03-12-11204)                               7
The remaining six employers appeared on the fraud report because of submission errors. While
the reports showed the employers submitted 35 names associated with 32,374 different SSNS,
the reported names described company names or known missing/bad data. For instance, an
employer included “NOT NOT and SSN BAD” in the name field.

Same SSN/Different Name Potential Fraud Identification Reports: The Same SSN/Different
Name Potential Fraud Identification reports showed that four employers could have used SSNVS
inappropriately to search for valid name/SSN combinations. The employers submitted 34 SSNs
associated with 2,085 different names, ranging from 51 to 74 different names. The State prison
agency submitted 30 (88 percent) of the 34 SSNs associated with 1,840 names. The transactions
appeared suspicious because the SSNs were reported with names that appeared to be legitimate.
Further, we found the 34 SSNs were valid but did not belong to any of the individuals for whom
they had been submitted for verification. Moreover, none of the employers reported any wages
to SSA using any of the name/SSN combinations indicating the verifications were not related to
wage reporting.

The remaining 3 employers who reported 5 SSNs associated with 527 names appeared on the
fraud reports because of submission errors. They submitted data in the name field, such as
names of companies or bad data, that did not appear to be legitimate. For example, one
employer reported a valid SSN with names such as “Mistake Mistake and Account Suspense.”

SSA staff agreed that four of the seven employers who appeared on both fraud reports had
inappropriately used SSNVS. At the time of our review, SSA staff had only contacted one of the
employers about their inappropriate activity and requested that they stop. The Agency did not
contact the other three employers because their activity did not appear to be recurring. While the
inappropriate use may not have been repetitive, SSA staff needs to ensure employers have a clear
understanding of the various verification programs the Agency offered. Companies that need to
verify SSNs for non-employment purposes (such as identity, credit, or mortgages) should be
using CBSV, which requires that companies obtain a valid consent from the individual before
verifying their SSN and paying a fee of $1.05 per transaction. Furthermore, since the
verifications were inappropriate and the employers may not have obtained proper consent, 12
these transactions could represent an improper disclosure.

For the remaining three employers, SSA concluded that their activity was associated with
submission errors. SSA staff did not contact two of the employers because they based their
conclusions on the fact that the employers used a fictitious SSN or entered only the first initial
when submitting names. SSA staff contacted the State prison agency and was informed that a
logic error had occurred when the State prison agency uploaded its files, causing names to be
repeated with different SSNs. However, of the 28 names that appeared on the Same
Name/Different SSN Potential Fraud Identification reports, we found 26 were reported with
valid name/SSN combinations, meaning the reported names and SSNs matched SSA’s records.


12
  SSA, Program Operations Manual System, GN 03305.001 Disclosure With Consent – General,
(September 12, 2005).




Access Controls for the Social Security Number Verification Service (A-03-12-11204)                  8
The number of valid name/SSN combinations for the 26 names ranged from 7 to 53, totaling
805. Based on our review of SSA’s earnings records, the State prison did not report any wages
for 802 of the 805 individuals indicating the verifications were not related to wage reporting.
However, SSA’s records showed that 132 of these individuals had a prison record.

CONCLUSIONS AND RECOMMENDATIONS
SSA processes over 100 million SSNVS transactions annually, so the Agency needs to ensure it
has proper controls in place to detect whether registered companies are using SSNVS to ensure
accurate wage reporting. Our review found that SSA’s Failed MEF Check reports were not
serving the purpose for which they were intended, which was to detect whether employers were
improperly using SSNVS for non-employment purposes. The 2009 and 2010 Failed MEF Check
reports, which included about 26 million verification transactions, were unreliable because they
included numerous false positive, non-SSNVS, and duplicate transactions, which made it
difficult for SSA staff to identity instances where employers may have been verifying individuals
who were not employees.

Further, while both the Same Name/Different SSN and Same SSN/Different Name Potential
Identification Fraud reports effectively identified instances where registered companies may
have been phishing for valid name/SSN combinations, the monitoring controls over the reports
could be improved. We reviewed the reports generated in FY 2010 and identified seven
employers who may have used SSNVS inappropriately to search for valid name/SSN
combinations for non-employees. However, SSA did not consistently contact the employers who
appeared on the fraud reports to confirm whether their activity was inappropriate and to inform
them of the proper use of SSNVS.

Accordingly, we recommend that SSA:

1. Determine whether to modify the existing Failed MEF Check report to ensure it is a reliable
   tool to detect whether registered companies are improperly using SSNVS for
   non-employment purposes or develop a more useful fraud detection tool.

2. Conduct outreach with registered companies regarding using the appropriate EIN when
   submitting verifications to reduce the number of transactions posted to the Failed MEF
   Check report.

3. Develop consistent procedures for contacting employers who appear on the fraud detection
   reports to ensure the appropriate use of SSNVS.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C.




Access Controls for the Social Security Number Verification Service (A-03-12-11204)               9
                                        APPENDICES




Access Controls for the Social Security Number Verification Service (A-03-12-11204)
Appendix A – SOCIAL SECURITY NUMBER VERIFICATION
             SERVICE
To increase the ease and convenience of verifying employee names and Social Security numbers
(SSN), the Agency developed the Social Security Number Verification Service (SSNVS).
SSNVS is a free online program, with a batch option, that allows employers and submitters (that
is, companies that conduct background checks, process payroll, and provide staffing service) to
verify employees’ names and SSNs. SSNVS ensures employees’ names and SSNs match the
Social Security Administration’s (SSA) records before their wage reports are submitted to SSA.
As of Calendar Year (CY) 2010, SSNVS had processed approximately 106.2 million transactions
for about 40,000 employers. As illustrated in Figure 1, SSNVS’ use increased by about 7 million
transactions (7-percent increase).

                                            Figure 1: SSNVS Transactions for CYs 2008 Through 2010
           Total Transactions in Millions




To access SSNVS, employers and third parties must first register online at SSA’s Business
Services Online (BSO) Website. After registration, SSA mails an activation code, 1 which is
needed to gain access to SSNVS, to the address the Internal Revenue Service has on file. 2 Once
the registered companies activate SSNVS using their user identification number 3 and the
activation code, they can start submitting verifications. Registered companies can:

•   Submit up to 10 employee names and SSNs (per screen) via the online SSNVS and receive
    immediate results.


1
 The activation code is an alphanumeric code sent by SSA to the employer or registered user when access to certain
programs is requested. This code must be entered on the Activate Access to BSO Service web page to enable the
user to access the requested service.
2
  The address is obtained from the Employer’s Federal Tax Return (Form 941) or Application for Employer
Identification Number (SS-4)
3
 The user identification number is a unique number assigned to users when they register for BSO services such as
SSNVS.




Access Controls for the Social Security Number Verification Service (A-03-12-11204)                           A-1
•   Upload files containing up to 250,000 employee names and SSNs and usually receive
    verification results the next Government business day. This bulk procedure allows
    employers to verify an entire payroll database or verify at one time the names and SSNs of a
    large number of newly hired workers.

SSA returns a verification code to the employer for each employee whose information does not
match SSA’s record. In addition to the verification code, SSA provides a death indicator if the
employee’s Numident record includes a date of death. Table A-1 describes the SSNVS
verification codes.

                 Table A-1: SSNVS Verification Codes Provided to Companies
           SSNVS Code                               Description of Code
             “Blank”        Name and SSN match SSA's records.
                1           SSN not in file (never issued to anyone)
                2           Name and date of birth match; gender code does not match
                3           Name and gender code match; date of birth does not match
                4           Name matches; date of birth and gender code do not match
                5           Name does not match; date of birth and gender code not checked
                6           SSN Not Verified; Other Reason
                Y           Death indicator




Access Controls for the Social Security Number Verification Service (A-03-12-11204)           A-2
Appendix B – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed applicable Federal laws and Social Security Administration (SSA) policies and
    procedures.

•   Reviewed prior audit reports from the Office of the Inspector General concerning the Social
    Security Number Verification Service (SSNVS).

•   Obtained Calendar Year (CY) 2009 and 2010 Failed Master Earnings File (MEF) Check
    transaction data.

            o For CY 2009, the report contained 2.7 million records related to 4,149 employers.

            o For CY 2010, the report contained 23.4 million records related to
              34,564 employers.

•   Selected a random sample of 100 transactions (200 in total) from the 2009 and 2010 Failed
    MEF Check reports to determine whether the transactions posted properly to the reports.

•   Obtained CY 2009 and 2010 Consent Based Social Security Number Verification (CBSV)
    transactions data.

•   Compared transactions from the Failed MEF Check report with CBSV to identify non-
    SSNVS transactions.

•   Obtained the weekly Same Name/Different Social Security Number (SSN) Potential Fraud
    Identification Report and Same SSN/Different Name Potential Fraud Identification Report
    generated in Fiscal Year 2010.

•   For the names and SSNs on the potential fraud reports, we reviewed data obtained from the
    Numident, Master Earnings File, Annual Wage Reporting System, and Prisoner Update
    Processing System.

We determined that the SSNVS data used for this audit were sufficiently reliable to meet our
objective. The entities audited were the Offices of Earnings, Enumeration and Administrative
Systems under the Deputy Commissioner for Systems and Electronic Services under the Office
of the Deputy Commissioner for Operations. Our work was conducted at the Philadelphia Audit
Division, Philadelphia, Pennsylvania, from April 2012 through January 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.



Access Controls for the Social Security Number Verification Service (A-03-12-11204)          B-1
           Appendix C – AGENCY COMMENTS




                                             SOCIAL SECURITY

 MEMORANDUM

Date:      April 2, 2013                                                                   Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Access Controls for the Social Security Number
           Verification Service” (A-03-12-11204)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.



           Attachment




           Access Controls for the Social Security Number Verification Service (A-03-12-11204)                 C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“ACCESS CONTROLS FOR THE SOCIAL SECURITY NUMBER VERIFICATION
SERVICE” (A-03-12-11204)

Recommendation 1

Determine whether to modify the existing Failed MEF Check report to ensure it is a reliable tool
to detect whether registered companies are improperly using SSNVS for non-employment
purposes or develop a more useful fraud detection tool.

Response

We agree. We will continue to investigate if there are meaningful tools or improvements we can
make to protect the use of the Social Security Number Verification System (SSNVS) for its
intended purpose.

Recommendation 2

Conduct outreach with registered companies regarding using the appropriate EIN when
submitting verifications to reduce the number of transactions posted to the Failed MEF Check
report.

Response

We agree. When we correspond with the registered users, we will include information on the
proper use of SSNVS. In addition, we plan to explore enhancements to both the online and file
upload SSNVS input screens to improve the instructions for users, including inputting the
appropriate employer identification number.

Recommendation 3

Develop consistent procedures for contacting employers who appear on the fraud detection
reports to ensure the appropriate use of SSNVS.

Response

We agree. With the low volume of issues appearing on the fraud detection reports, we did not
see the need for formal procedures; however, we will develop procedures as recommended.




Access Controls for the Social Security Number Verification Service (A-03-12-11204)            C-2
Appendix D – MAJOR CONTRIBUTORS
Cylinda McCloud-Keal, Philadelphia Audit Director

Virginia Harada, Audit Manager

William Kearns, IT Specialist

Luis Ramirez, Audit Data Specialist




Access Controls for the Social Security Number Verification Service (A-03-12-11204)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
